W                                                                             March 31, 1999


TO:              AO/Chief Information Officer
                 S/Associate Administrator for Space Science
                 SJ/Director, NASA Management Office, JPL

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on Audit of Year 2000 Program Compliance
                 Requirements in NASA Information Technology-Related Contracts
                 Assignment Number A9901500
                 Report No. IG-99-022

The subject final report is provided for your use. Please refer to the Results in Brief section for the
overall audit results. Our evaluation of your responses has been incorporated into the body of the
report, and Appendix E addresses additional comments provided by the Chief Information Officer.
Your comments on a draft of this report were responsive to our recommendations. Management’s
completed action is sufficient to disposition recommendation 1 and close it for reporting purposes.
Please notify us when corrective actions have been completed on recommendation 2, including the
extent of testing performed to ensure the corrective action is effective. This recommendation is
undispositioned and will remain open until completion of corrective actions and until corrective
actions are determined to be effective.

If you have questions concerning the report, please contact Mr. David L. Gandrud, Audit Program
Director, Information Technology Program Audits, at (650) 604-2672, or
Mr. Roger W. Flann, Program Manager, at (818) 354-9755. We appreciate the courtesies extended
to the audit staff. The report distribution is in Appendix F.

[Original signed by]

Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
G/General Counsel
H/Acting Associate Administrator of Procurement
JM/Management Assessment Division
                                                                           IG-99-022




AUDIT
                           YEAR 2000 PROGRAM COMPLIANCE REQUIREMENTS IN NASA INFORMATION
REPORT                                     TECHNOLOGY-RELATED CONTRACTS

                                                  March 31, 1999




                                      OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this audit report, contact the Assistant Inspector General for Auditing
at 202-358-1232, or at www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W, Room 8V69
               300 E Street, SW
               Washington, DC 20546-1000

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at
(800) 424-9183; (800) 535-8134 (TDD); or at www.hq.nasa.gov/office/oig/hq/hotline.html#form, or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.



Acronyms

IT             Information Technology
JPL            Jet Propulsion Laboratory
OMB            Office of Management and Budget
PIC            Procurement Information Circular
Y2K            Year 2000
                                   NASA Office of Inspector General

IG-99-022                                                                             March 31, 1999
 A9901500

                       Year 2000 Program Compliance Requirements in
                       NASA Information Technology-Related Contracts


Introduction

The NASA Office of Inspector General is performing an audit of the Year 2000 (Y2K) Program
at five NASA Centers1 and the Jet Propulsion Laboratory (JPL). Our overall objective was to
evaluate the adequacy of NASA’s renovation and validation efforts including NASA’s Y2K
oversight of contractor activities and reporting to the Office of Management and Budget (OMB).
This report relates to NASA information technology (IT) assets that NASA acquires and that
contractors operate and maintain. Other aspects of the objectives either have been or will be
addressed in another report. Details on our scope and methodology are in Appendix A.

Results in Brief

Each of the six locations audited had included the NASA-directed Y2K requirements in
solicitations and new contracts used to acquire IT assets. However, JPL had not included the
NASA-directed requirements in all its applicable IT operations and maintenance contracts2 as
of January 31, 1999. Until all applicable contracts are modified to include the requirements,
NASA lacks reasonable assurance that its systems will be Y2K compliant on January 1, 2000.

Background

Software application programs that use a standard two-digit format (mm/dd/yy) to generate a
date may not work properly after the year 2000. For example, “00” may not process properly
because the “00” year may be considered 1900 - not 2000, or may be rejected as an invalid entry.
Systems that will continue to function properly are designated “Y2K compliant.” Systems that
are not “Y2K compliant” are at risk of failure and may cause other systems to fail. Y2K
compliance is defined in NASA’s Year 2000 Test and Certification Guidelines and Requirements
as information technology that:

        . . . accurately processes date/time data (including, but not limited to, calculating,
        comparing, and sequencing) from, into, and between the twentieth and twenty-first centuries,
        and the years 1999 and 2000 and leap year calculations, to the extent that other information


1
  John H. Glenn Research Center at Lewis Field (formerly Lewis Research Center), Goddard Space Flight
Center, Lyndon B. Johnson Space Center, John F. Kennedy Space Center, and George C. Marshall Space
Flight Center.
2
  Operations and maintenance contracts include purchase orders.
        technology, used in combination with the information technology being acquired, properly
        exchanged date/time data with it.

In October 1996, NASA issued initial Y2K guidance for installations to follow when acquiring
NASA IT assets and for contractors to follow when operating and maintaining NASA IT
assets. In May 1998, NASA issued Procurement Information Circulars (PICs) 98-8 and 98-9,
which included guidance for the respective areas. PIC 98-8 establishes a standard approach to
address Y2K compliance in solicitations and new contracts. PIC 98-9 addresses existing
NASA contracts by requiring additions to their statements of work. See Appendix B for more
information regarding PICs 98-8 and 98-9.

Incorporating Contract Compliance Requirements

Finding. As of January 31, 1999, JPL had not incorporated the PIC 98-9 requirements into
applicable operations and maintenance contracts that involved mission-critical and
nonmission-critical systems. JPL management attributed its delay to other workload
priorities. Untimely incorporation of the Y2K compliance requirements into NASA contracts
adversely affects the Agency’s ability to meet OMB’s milestones for Y2K renovation,
validation, and implementation phases and increases the potential for noncompliant Agency
systems on January 1, 2000. Also, contractors may not be held accountable for ensuring Y2K
compliance if the requirements are not incorporated.

Y2K Phases and Milestones. The requirements related to Y2K phases and milestones are
OMB-directed and included in PICs 98-8 and 98-9. The requirements are also incorporated
into NASA’s contract for operation of JPL,3 as follows:

•    Renovation. Includes making and documenting software and hardware changes, and
     developing replacement systems. The contractor must complete renovation of affected
     software, hardware, and firmware4 by September 30, 1998.

•    Validation. Includes unit, integration, system, and end-to-end testing for Y2K
     compliance. The contractor must complete validation and testing of converted or
     replaced systems by January 31, 1999.

•   Implementation. Includes acceptance testing and integration of converted and replaced
    systems into a production environment. The contractor must complete implementation by
    March 31,1999.

For mission-critical systems, NASA required contracting officers to modify existing contracts
by July 31, 1998. For nonmission-critical systems, contracting officers were to modify
existing contracts as time and workload permitted, but in sufficient time to comply with the


3
  JPL is a Federally Funded Research and Development Center operated by the California Institute of
Technology under NASA contract NAS7-1407.
4
  Firmware is software stored in read-only memory or programmable read-only memory.


                                                     2
OMB-directed milestones. To meet the required time frames, contracting officers may
modify contracts unilaterally.

The following table identifies the status of mission-critical and nonmission-critical contracts as
of January 31, 1999, for the five Centers and JPL.

                       Status of PIC 98-9 Requirements in Contracts

                        Mission Critical                         Nonmission Critical
  Centers       Total     Contracts to Contracts to              Total    Contracts to
               Contracts Modify as of Modify as of              Contracts Modify as of
                             7/31/98     1/31/99                             1/31/99
 Glenn             2             0            0                    27            0
 Goddard         19              0            0                    92            0
 JPL             20             19            6                   125           51
 Johnson           5             0            0                    78            0
 Kennedy           3             0            0                    16            0
 Marshall        10              8            0                      6           0
 Total           59             27            6                   344           51


As indicated in the table, JPL had not yet modified 6, or 30 percent, of its mission-critical
contracts, and 51, or 40 percent, of its nonmission-critical contracts as of January 31, 1999
(all mission-critical contracts were to have been modified 6 months earlier). The remaining
five NASA Centers had completed all modifications as of January 31, 1999.

Untimely inclusion of the Y2K compliance requirements into NASA’s IT-related contracts
reduces the Agency’s assurance that its contractor-operated and contractor-maintained
systems will be Y2K compliant on January 1, 2000. Without the requirements, contractors
are not obligated to correct noncompliant systems. Also, without full contractor compliance,
the Agency may be unable to meet OMB’s milestones for Y2K renovation, validation, and
implementation.

While JPL was continuing to make progress in adding the PIC 98-9 requirements to its
contracts, the Agency has no assurance that JPL will complete implementation of all
applicable systems by March 31, 1999. Further, JPL had not established a target date for
modifying the remaining contracts, and we found no evidence that NASA Headquarters or the
NASA Management Office at JPL was monitoring or tracking the status of JPL’s progress in
incorporating the PIC 98-9 requirements into the remaining contracts.




                                                3
Recommendations for Corrective Action

The NASA Chief Information Officer, in coordination with the NASA Management Office at JPL,
should:

       1. Establish a target date(s) for JPL to incorporate the PIC 98-9 requirements into all
          applicable mission-critical and nonmission-critical contracts.

       2. Monitor JPL’s progress in meeting the target date(s) established in response to
          Recommendation 1.

Management’s Response

Concur. The Chief Information Officer’s (CIO) response (see Appendix D) concurred with
each recommendation. The CIO established a target date of June 30, 1999, for JPL to
complete the incorporation of PIC 98-9 requirements into the applicable mission-critical and
nonmission-critical contracts. The CIO response also stated that NASA Headquarters, the
NASA Management Office at JPL, and JPL would continue to monitor progress toward the
target date. The CIO further stated that JPL had only one remaining mission-critical and six
nonmission-critical subcontracts to be modified as of March 25, 1999.

The CIO provided additional comments on the report which we have addressed in
Appendix E.

Evaluation of Management’s Response

We consider management’s actions taken and planned responsive to the recommendations.




                                              4
                Appendix A. Objectives, Scope and Methodology

Objectives

Our objectives were to (1) evaluate the adequacy of NASA’s efforts to renovate and validate
systems with Y2K date problems, (2) evaluate the adequacy of NASA’s oversight of contractor
renovation and validation activities, and (3) determine whether NASA’s Y2K reporting to the
Office of Management and Budget (OMB) is accurate and well-supported. This report relates to
the second objective only. Work on the other objectives either has been or will be addressed in
another report.

Specifically, this report assesses the adequacy of incorporating Y2K compliance requirements in
Y2K-affected solicitations and contracts for the operation and maintenance of NASA IT assets.
PIC 98-8 requirements are intended to ensure that NASA acquires IT assets that are Y2K
compliant. PIC 98-9 requires NASA contractors that operate and maintain IT assets on behalf of
NASA to meet Y2K requirements within established milestones.

See Appendix C for Year 2000 audit reports issued by the NASA Office of Inspector General.

Scope and Methodology

We performed work at John H. Glenn Research Center at Lewis Field (formerly Lewis
Research Center), Goddard Space Flight Center, Lyndon B. Johnson Space Center, John F.
Kennedy Space Center, George C. Marshall Space Flight Center, and the Jet Propulsion
Laboratory. Specifically, we:

•   Interviewed Y2K representatives and procurement personnel to determine the process and
    procedures used at each location for identifying contracts subject to Y2K and the status of
    contract modifications.
•   Obtained data regarding the universe of contracts potentially subject to the PICs.
•   Established the reliability of the data obtained by reviewing all contract files related to
    mission-critical systems and the judgmentally selected files related to nonmission-critical
    systems.
•   Determined whether appropriate Y2K requirements had been incorporated into the
    contracts and whether adequate justifications existed for not including the requirements in
    the contracts.

Management Controls Reviewed

We reviewed initial Y2K guidance, PICs 98-8 and 98-9, and the related processes and procedures
used at each of the locations audited to determine Y2K contract modification requirements. In
addition, we tested those controls to determine Center and JPL compliance. The controls
generally appeared adequate, except for those discussed in our finding.




                                               5
Appendix A

Audit Field Work

We performed the audit field work for this report from August 1998 through January1999. We
conducted the audit in accordance with generally accepted government auditing standards.




                                           6
              Appendix B. Procurement Information Circulars 98-8 and 98-9

PIC 98-8, “Year 2000 Compliance – Solicitations and New Contracts”

PIC 98-8 requires contracting officers to include the clause “Year 2000 Compliance (May 1998),”
in its entirety, in all solicitations and new contracts for IT assets costing more than the small-
purchase threshold, unless it is determined that IT assets will not be acquired. The contracting
officers are to consult with the Contracting Officer’s Technical Representative or requiring
organization for assistance in determining the applicability of the PIC to particular contracts.

PIC 98-8 also requires contractors to demonstrate, through documentation, that IT assets
provided to NASA are Y2K compliant and to warranty the IT assets provided. The warranty
requires contractors to repair or replace any noncompliant Y2K items at no added cost to the
Government.

For new solicitations or contracts for the operation and maintenance of existing contracts, the
contracting officer is required to identify the OMB phases and milestone dates for the renovation,
validation, and implementation phases. Further, contractors are to provide documentation
demonstrating that the milestones are being met.

PIC 98-9, “Year 2000 Compliance – Existing NASA Contracts”

PIC 98-9 requires contracting officers to add statements to existing contracts for the operation
and/or maintenance of IT systems. The statements relate to (1) the definition of “Year 2000
compliant”; (2) documentation requirements to support Y2K compliance; (3) milestones for
renovation, validation and implementation; and (4) documentation requirements for meeting
milestones.

Contracting officers are to prioritize the order of contract modifications based on mission
criticality. The suspense date for modifying mission-critical contracts was July 31, 1998. All
other existing IT-related contracts were to be modified as workload permitted, but in sufficient
time to comply with the OMB-directed milestones of September 30, 1998, for renovation;
January 31, 1999, for validation; and March 31, 1999, for implementation.

PIC 98-9 states that contracting officers should first attempt to modify applicable contracts
bilaterally; however, to meet the required time frames, contracting officers may modify the
contracts unilaterally. If modified unilaterally, contracting officers are to limit the Agency’s
liability by inserting a “not-to-exceed” amount for each contract change.




                                                7
                    Appendix C. Summary of Prior Coverage


The NASA Office of Inspector General has issued two reports relating to Y2K. These reports
are summarized below.

“Year 2000 Date Conversion – Assessment Phase,” Report Number IG-98-040,
September 30, 1998. Some NASA Centers did not have documented support for Y2K cost
estimates reported to OMB and did not prepare estimates using a consistent methodology.
Also, documentation did not always exist to support the manner in which Center assessments
and decisions for Y2K compliance were conducted. The audit showed that NASA Centers
also needed to improve the sharing of information on the status of Y2K compliance associated
with commercial off-the-shelf products. We made three recommendations to assist NASA in
addressing the Y2K date conversion problem. Management concurred with the two
recommendations concerning documentation for Y2K assessments and the sharing of
information on commercial off-the-shelf products. Management did not concur with the
recommendation concerning guidance for Y2K cost estimates, stating that adequate guidance
on cost estimation had been provided to NASA Centers. We reaffirmed our position on this
recommendation and requested additional comments.


“Year 2000 Program Oversight of NASA Production Contractors,” Report Number
IG-99-004, December 17, 1998. NASA lacks reasonable assurance that its production
contractors will provide Y2K compliant data to support the Agency’s key financial and
program management activities. This condition occurred because NASA had not asked the
two principal Department of Defense agencies that perform the contract administration and
audit functions at NASA’s contractor locations, the Defense Contract Audit Agency, and the
Defense Contract Management Command, to conduct Y2K reviews at NASA’s major
contractor locations. As a result, NASA risks using noncompliant data that may adversely
affect the Agency’s control, budgeting, program management, and cost accounting activities.
We made two recommendations to NASA relating to the Y2K status of its major contractors.
Management concurred with the intent of the recommendations and issued a letter to the
Defense Contract Audit Agency requesting data on Y2K coverage at the Agency’s major
contractors. In addition, NASA issued a letter to its Center Procurement Officers instructing
them to monitor Y2K problems identified by the Defense Contract Audit Agency.




                                              8
Appendix D. - Management’s Response




                9
Appendix D




             10
Appendix D




             11
Appendix D




             12
Appendix D




             13
                    Appendix E. - Management’s Added Comments

The CIO concurred with the audit recommendations but took exception to several areas of the
audit findings. His comments are summarized below, followed by our audit responses.

   1. How PIC 98-8 and PIC 98-9 Requirements Apply to JPL

   The CIO stated that the draft report does not recognize how NASA applied the PIC 98-8
   and PIC 98-9 requirements to JPL given JPL’s unique status as a Federally Funded
   Research and Development Center (FFRDC) and, therefore, the draft report presents a
   distorted impression of JPL’s overall status relative to other NASA Centers. The CIO
   acknowledged that PIC 98-9 requirements are applicable to subcontracts and purchase
   orders that support JPL’s information technology (IT) role as an FFRDC, just as PIC 98-9
   requirements are applicable to prime and subcontracts that support a NASA Center’s IT
   requirements. The CIO also discussed the PIC 98-8 and 98-9 requirements in the
   NASA/Caltech contract and JPL’s applicability to other NASA Y2K guidelines.

   Audit Response

   The IT assets at JPL and at a Center are designed to serve the NASA mission. At
   Centers, prime contractors operate and maintain IT assets. At JPL, contractors that
   operate and maintain IT assets are called subcontractors because NASA’s prime contract
   is with Caltech. JPL’s subcontractors perform the same function performed by the prime
   contractors at other Centers and, therefore, the audit finding is based on a valid
   comparison. Further, the NASA/Caltech contract recognizes the requirements for JPL IT
   assets to be Y2K compliant and includes the PIC 98-8 and 98-9 requirements as part of
   the contract provisions. Accordingly, the Y2K IT requirements at JPL and the NASA
   Centers are essentially the same.

   2. Accurate Status of JPL and the Incorporation of PIC Requirements

   The CIO stated that the draft report data relating to the number of mission-critical and
   nonmission-critical subcontracts, and their PIC 98-9 status, are incorrect. Using a JPL
   database, the CIO stated that as of January 29, 1999, 3 mission-critical and 13
   nonmission-critical contracts needed to incorporate the PIC 98-9 requirements into their
   contract provisions. The OIG report identified the contract numbers as 6 and 51 for
   mission-critical and nonmission-critical contracts, respectively.

   Audit Response

   The OIG physically verified the incorporation of PIC clauses into all mission-critical and
   selected nonmission-critical contracts and purchase orders. We did not audit JPL’s
   database for accuracy and completeness but did provide the results of our physical




                                              14
Appendix E


  verification to the JPL manager for the Y2K contract modifications. We confirmed our
  numbers were in agreement as of January 31, 1999.

  3. Monitoring and Tracking the Status of JPL’s Progress

  The CIO took exception to the report’s statement that neither NASA Headquarters nor
  the NASA Management Office at JPL was monitoring or tracking JPL’s progress in
  incorporating PIC 98-9 requirements into the remaining contracts. The CIO stated that
  NASA was well aware of JPL’s progress in making the contract modifications and that
  NASA was reviewing JPL’s status monthly.

  Audit Response

  Although JPL’s Y2K activities were being reported to NASA, nothing came to our
  attention to indicate that NASA was effectively tracking and monitoring the details of
  JPL’s progress toward incorporating the PICs into all applicable contracts. If effective
  tracking and monitoring had taken place, NASA management should have taken actions to
  ensure that JPL was meeting the NASA/Caltech contract requirements within the
  established timeframes, especially since JPL had missed its milestones by many months.
  Further, the key purpose of the NASA Management Office at JPL is to oversee JPL
  operations. This would include ensuring that JPL timely satisfies the NASA/Caltech
  contract requirements relating to PIC 98-9.

  4. Impact on the Agency’s Ability to Meet OMB Milestones

  The CIO took exception to our conclusion that JPL’s untimely incorporation of PIC
  requirements could affect the Agency’s ability to be Y2K compliant by January 1, 2000.
  The NASA CIO cited specific actions taken by JPL (such as meeting milestones,
  certification of all inventory items, support for the Agency’s Y2K end-to-end testing, and
  preparation of continuity and contingency plans) that he believes represent reasonable
  steps to ensure that NASA assets are Y2K compliant.

  Audit Response

  NASA and JPL are highly dependent on contractors to operate and maintain their IT
  assets and to ensure the IT assets are Y2K compliant. Without timely inclusion of the
  Y2K requirements into contracts used to maintain and operate JPL’s IT assets, NASA
  cannot be reasonably assured that its IT assets will be Y2K compliant by January 1, 2000.
  At the time of our audit, the actions listed by management had not resulted in
  incorporation of the required clauses in all applicable JPL contracts.




                                            15
                         Appendix F. Report Distribution

NASA Headquarters

Code AO/Chief Information Officer
Code B/Chief Financial Officer
Code B/Comptroller
Code G/General Counsel
Code H/Acting Associate Administrator for Procurement
Code J/Associate Administrator for Management Systems and Facilities
Code JM/Director, Management Assessment Division
Code L/Associate Administrator for Legislative Affairs
Code M/Associate Administrator for Space Flight
Code R/Associate Administrator for Aero-Space Technology
Code R/Chief Information Officer Representative
Code S/Associate Administrator for Space Science
Code Y/Associate Administrator for Earth Science

NASA Centers

Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
Director, George C. Marshall Space Flight Center
Director, NASA Management Office, Jet Propulsion Laboratory

NASA Offices of Inspector General

Ames Research Center
Dryden Flight Research Center
John H. Glenn Research Center at Lewis Field
Goddard Space Flight Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center



                                           16
Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Assistant to the President and Chair, President's Council on Y2K Conversion
Deputy Director of Management, Office of Management and budget
Deputy Associate Director, Energy and Science Division, Office of Management
 and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division,
 General Accounting Office
Special Counsel, House Subcommittee on National Security, International Affairs,
 and Criminal Justice
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member -- Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD and Independent Agencies
House Committee on Government Reform and Oversight
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                            17
Major Contributors to This Report

David L. Gandrud, Program Director, Information Technology Program Audits
Roger W. Flann, Program Manager
Rhodora Southerland, Auditor-in-Charge
Barbara J. Smith, Program Assistant
Vera J. Garrant, Acting Report Process Manager
